                                        SOCIAL SECURITY
MORANDUM

Date:      December 22, 2009                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Disability Determination Services’ Staffing Under the American Recovery and
           Reinvestment Act (A-07-09-29156)


           The attached final report presents the results of our review. Our objective was to
           assess the Social Security Administration’s staffing plan associated with funds provided
           to disability determination services under the American Recovery and Reinvestment Act
           of 2009.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                            Patrick P. O’Carroll, Jr.

           Attachment
QUICK RESPONSE
 EVALUATION


Disability Determination Services’
  Staffing Under the American
 Recovery and Reinvestment Act
          A-07-09-29156




          December 2009
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                          Background
OBJECTIVE
Our objective was to assess the Social Security Administration’s (SSA) staffing plan 1
associated with funds provided to disability determination services (DDS) 2 under the
American Recovery and Reinvestment Act of 2009 (ARRA). 3

BACKGROUND
ARRA provided SSA an additional $500 million to process retirement and disability
workloads. ARRA funds should help SSA address increasing disability and retirement
workloads caused by the combination of the economic downturn and the leading edge
of the baby boomer retirements. In Fiscal Year (FY) 2009, SSA expected disability and
retirement claims to increase by 600,000 over FY 2008. 4

At the time of our review, $87 million of SSA’s ARRA funds for FYs 2009 and 2010 had
been allocated for labor costs of DDS employees and additional overtime, including
indirect costs. The labor costs included hiring 300 new DDS employees. The
remaining $413 million was allocated to the Offices of Operations and Disability
Adjudication and Review, as well as for health information technology (IT) research and
activities to facilitate the adoption of electronic medical records in disability claims.

The Office of Management and Budget (OMB) issued guidance on spending and
accounting for ARRA funds.5 Specifically, OMB requires agency-wide and program-
specific plans regarding ARRA spending. These plans must include the program
purpose, types of activities and projects that will be performed, and a funding table
showing the agency funding listed by program, project, and activity categories. Funds
returned to the program or any offsetting collections received as a result of recovery
actions are to be specifically identified. The plans must also include major milestones
with planned delivery dates, the agency’s monitoring process, performance measures to
test effectiveness, and a description of how the agency will make measured results
available to the public.

1
 For purposes of this report, “staffing plan” means SSA’s planned use of ARRA funds for the labor costs
of state employees and additional overtime (including indirect costs).
2
  Disability determinations under SSA’s disability programs are performed by DDSs in each state or other
responsible jurisdictions. Such determinations are required to be performed in accordance with Federal
law and underlying regulations. 42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
3
    Pub. L. No. 111-5, Division A, Title VIII (H.R. 1-71 to H.R. 1-72).
4
    See Appendix D for the Disability and Retirement Workload Plan.
5
 OMB M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009,
February 18, 2009, and OMB M-09-15, Updated Implementing Guidance for the American Recovery and
Reinvestment Act of 2009, April 3, 2009, Sections 2.7 and 2.8.


DDS Staffing Under ARRA (A-07-09-29156)                                                                   1
To carry out its responsibilities, SSA created an Agency Wide ARRA Plan and a
program-specific Disability and Retirement Workload Plan. OMB approved these plans
in May 2009. SSA has revised the Disability and Retirement Workload Plan since its
May approval. Appendix D contains the Disability and Retirement Workload Plan as of
November 2009.




DDS Staffing Under ARRA (A-07-09-29156)                                               2
                                                           Results of Review
SSA developed an appropriate plan for the $87 million in ARRA funds it was given to
process disability workloads. At the time of our review, DDSs had hired all 300 of the
ARRA-funded employees who will be trained to process disability workloads.6 In
addition, SSA planned to use $23 million of the ARRA funds for DDS employees to work
overtime processing disability workloads and $10 million for DDS indirect costs.
However, we identified the following matters for consideration to ensure ARRA funds
are properly accounted for and efficiently used and their benefits are fully disclosed.
•   SSA used a cost allocation methodology that charged ARRA funds based on the
    average workyear cost to process disability and retirement workloads instead of the
    actual cost. In our November 2009 report on ARRA funds allocated to SSA’s Office
    of Operations, we recommended SSA disclose its cost allocation methodology, the
    cost of new hires, and any overtime for processing disability and retirement
    workloads funded from the ARRA appropriations.7 In response to our
    recommendation, SSA revised its retirement and disability workload plan to make
    the recommended disclosures.
•   The one performance measure for DDSs in the Disability and Retirement Workload
    Plan will not disclose all the anticipated benefits of the ARRA funds.

PLANNED USE OF ARRA FUNDS FOR DDSs

According to SSA’s Office of Budget, SSA planned to use $87 million in ARRA funds for
DDS salaries and benefits, overtime, and indirect costs8 (see Table 1). This includes
$17 million in FY 2009 and $70 million in FY 2010.

           TABLE 1: SSA’S PLANNED USE OF ARRA FUNDS FOR DDS
             Salaries/ Benefits   Overtime    Indirect Costs       Total
      FY                                                     9
                (in millions)   (in millions)  (in millions)   (in millions)
     2009           $ 4             $ 11            $ 2             $17
     2010            50               12                8            70
     Total          $54              $23            $10             $87

6
 In addition to the 300 hires under ARRA, the DDSs are budgeted to hire 2,389 additional employees in
FYs 2009 and 2010 to help with the increasing disability workloads.
7
 SSA OIG, The Office of Operations’ Staffing Plans Under the American Recovery and Reinvestment Act
of 2009 (A-09-09-29157), November 17, 2009.
8
 Indirect costs arise from activities common to multiple programs but not readily assignable to these
programs without effort disproportionate to the results achieved (OMB Circular A-87,
Attachment A, § F.1).
9
 The indirect costs that will be funded by ARRA were calculated as 13 percent of salaries, benefits, and
overtime. The indirect cost rate of 13 percent was calculated by dividing the FY 2008 actual DDS indirect
costs by the FY 2008 actual personnel costs.


DDS Staffing Under ARRA (A-07-09-29156)                                                                 3
The planned use of ARRA funds included hiring 300 DDS employees. SSA determined
where the 300 new DDS employees would be placed based on several factors,
including DDS staffing information provided by the regional offices. The DDS staffing
information contained staffing levels, attrition rates, workload receipt projections, and
hiring authority. Based on this information, SSA distributed DDS hiring authority and
overtime to its regional offices as shown in Table 2.

               TABLE 2: ALLOCATION OF ARRA-FUNDED DDS NEW HIRES
                       AND OVERTIME TO THE REGIONAL OFFICES
                                      FY 2009
                                     DDS New
                   Regional Office              Overtime Workyears 10
                                       Hires
              Boston                      12             23.6
              New York                    29               6.8
              Philadelphia                31             15.5
              Atlanta                    118             23.7
              Chicago                     41             25.6
              Dallas                      17             16.9
              Kansas City                  5               5.5
              Denver                       2               0.4
              San Francisco               28             16.1
              Seattle                     17               6.1
              Total                      300              140

According to the Office of Disability Determinations (ODD), the regional offices
determined where their share of the new hires would be placed based on where
employees were most needed in their respective regions. 11 As of September 25, 2009,
SSA reported that all 300 new DDS employees had been hired.

ARRA FUNDS NEEDED FOR NEW HIRES

SSA’s cost allocation methodology for the 300 new DDS employees will most likely
result in ARRA funds being charged more than the actual salaries and benefits incurred
for them. Specifically, SSA determined the labor costs to be charged to its ARRA funds
for these 300 new DDS employees using average annual salaries and benefits for all
DDS employees. The average annual salaries and benefits were $78,950 and
$83,780 for FYs 2009 and 2010, respectively. 12 However, the average annual salaries
for new DDS employees are most likely lower than the average for all DDS employees.
We requested from SSA the average salaries and benefits for new DDS employees and

10
  Overtime workyears totaling 140.2 were provided by SSA’s Office of Disability Determinations. ARRA
funds will also be allocated to DDSs for 140 workyears of overtime in FY 2010.
11
     See Appendix C for the ARRA-funded employees by DDS location.

12
     The average annual salary and benefit amounts were provided by SSA’s Office of Budget.


DDS Staffing Under ARRA (A-07-09-29156)                                                                4
were informed it was unavailable because SSA did not collect or use that information.
Therefore, we are unable to show the amount that ARRA funds will be charged over the
actual salaries and benefits incurred for these new DDS employees. 13

In addition, SSA’s Office of Budget estimated that 13 percent of total salaries, benefits,
and overtime would be charged to ARRA funds for indirect costs. This results in ARRA
funds being charged $10 million in indirect costs. Since the indirect costs were
calculated based on average salaries and benefits instead of actual, ARRA funds will
most likely be charged more than the actual amount of indirect costs incurred in DDS
operations.

Prior to November 2009, SSA’s Disability and Retirement Workload Plan did not
disclose how it was allocating costs to the ARRA appropriation. Based on the
recommendation from a prior OIG review, 14 SSA revised the plan to disclose its cost
allocation methodology for ARRA funds (see Appendix D). SSA’s workload plan can be
found at http://www.ssa.gov/recovery/ and http://www.recovery.gov/.

PERFORMANCE MEASURES
The DDS employees funded by ARRA will process a wide range of disability workloads.
However, SSA’s Disability and Retirement Workload Plan has only one performance
measure for DDSs—the number of initial disability claims processed. As a result, SSA
does not plan to report to the public the full benefit of the ARRA funds provided to SSA.

OMB’s guidance requires that agency Recovery Program Plans include performance
measures that reflect expected quantifiable outcomes that are consistent with the intent
and requirements of the legislation. 15 The OMB guidance also states that the measures
used to report an Agency’s program performance in relation to the ARRA goals should
be retained (in terms of incremental change against present level of performance of




13
   SSA budgeted 600 workyears to ARRA for DDS labor costs in FY 2010. The 600 workyears totals
about $50 million (600 workyears times $83,780 average salary). According to SSA’s Office of Budget,
the 600 workyears are for the ongoing DDS effort to address the Agency’s increased disability claims
workload. The Office of Budget further stated that, conceptually, 300 of these 600 workyears (or about
$25 million) will be used for the salaries and benefits of the 300 ARRA-funded new DDS employees. The
remaining 300 workyears will support the salaries and benefits of other DDS employees. However, the
use of these ARRA workyear resources will be indistinguishable from other workyear resources provided
to DDSs.
14
  The Office of Operations’ Staffing Plans Under the American Recovery and Reinvestment Act
(A-09-09-29157), November 17, 2009. We reported that SSA’s cost allocation methodology for the new
employees hired in Operations will result in ARRA funds being charged approximately $94 million over
the estimated salaries and benefits expected to be incurred for these new employees.
15
     OMB M-09-15, supra, Section 2.8g.



DDS Staffing Under ARRA (A-07-09-29156)                                                                5
related agency programs or projects/activities specified in the plan). 16 Finally, one of
the accountability objectives in the OMB guidance is that the use of all funds are to be
transparent to the public, and the public benefits of these funds are to be reported
clearly, accurately, and timely. 17

SSA has 25 performance measures that track its progress in meeting its goals and
objectives. 18 The following two performance measures specifically relate to DDS’
processing of disability workloads and we believe, would be beneficial performance
measures to report in SSA’s Disability and Retirement Workload Plan.

     Minimize the average processing time for initial disability claims to provide timely
      decisions.
     Number of periodic continuing disability reviews processed to determine continuing
      entitlement based on disability to help ensure payment accuracy.

In addition, SSA is facing a considerable increase in initial claims receipts due to the
declining economy. As of October 2009, initial claims pending have grown to about
784,000 cases. SSA now expects 350,000 more initial disability claims than first
projected for FY 2010 and estimates that the pending level could reach over 1 million by
FY 2010. We believe performance measures in the Disability and Retirement Workload
Plan related to initial claims pending would be beneficial since several million dollars in
ARRA funds are being used for DDS labor costs associated with processing such
critical workloads as reducing initial pending claims.

We also believe SSA should report the overall processing time for disability claims, from
the date of application until the date SSA denied or awarded the claim. In response to a
2008 OIG report, SSA agreed this performance measure would be useful to the Agency,
Congress, the public, and disability claimants.19 A Department of Veterans Affairs
program-specific plan includes two measures that assess the impact of ARRA funds on
the timeliness of processing disability claims, from the date the claim is received to the
date of completion. 20


16
  Id. According to the OMB guidance, in addition to reducing the burden on grant recipients and
contractors, use of existing measures will allow the public to see the marginal performance impact of
ARRA investments.

17
     OMB M-09-15, supra, Section 1.2.
18
     SSA’s Annual Performance Plan for FY 2010 and Revised Final Annual Performance Plan for FY 2009.
19
  SSA OIG, Disability Claims Overall Processing Times (A-01-08-18011), December 2008. SSA agreed
with the intent of the report’s recommendation that it develop and publish a measure that shows the
overall disability processing time from the claimant’s perspective. However, SSA expressed several
concerns about implementing the recommendation.
20
  Department of Veterans Affairs, Recovery Act Program-Specific Plan, Veterans Benefits Administration,
Hiring Temporary Claims Processors, May 2009.


DDS Staffing Under ARRA (A-07-09-29156)                                                                 6
DDS new hires may use ARRA funds that impact these performance measures.
However, the performance measures may not initially reflect the impact of the 300 new
DDS employees on the disability programs since they require extensive training. In fact,
each DDS conducts its own training and mentoring of new hires, and it generally takes
2 years for a disability examiner to become fully productive. In addition, experienced
DDS employees provide the training that takes them away from processing disability
claims. However, SSA should realize substantial benefits from the 300 employees after
their training is completed, especially in FY 2010. Accordingly, SSA should disclose the
impact of training on the performance measures.

In response to our draft report, SSA stated that it considered our observation on using
additional performance measures. However, SSA believes the measures in the
Disability and Retirement Workload Plan have the greatest impact on and visibility to the
American public.




DDS Staffing Under ARRA (A-07-09-29156)                                                 7
                                   Matters for Consideration
ARRA provided SSA with $500 million to address the increasing disability and
retirement workloads. SSA allocated $87 million of these funds to DDSs for labor costs,
overtime, and indirect costs. These funds allowed DDSs to hire 300 additional
employees and pay the labor costs of processing critical workloads. To ensure SSA
fully complies with OMB’s guidance for establishing adequate performance measures
and tracking the impact of the ARRA funding, we believe SSA should consider the
following.

•   Including additional performance measures in its Disability and Retirement Workload
    Plan related to minimizing the average processing time for initial disability claims, the
    number of periodic continuing disability reviews processed, initial claims pending,
    and overall processing time for disability claims.

•   Tracking and reporting how ARRA funds used for new hires and overtime in DDSs
    will impact the Agency’s performance measures related to processing disability
    workloads.




DDS Staffing Under ARRA (A-07-09-29156)                                                     8
                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Fiscal Year 2009 American Recovery and Reinvestment Act Hiring
APPENDIX D – Disability and Retirement Workload Plan
APPENDIX E – OIG Contacts and Staff Acknowledgments




DDS Staffing Under ARRA (A-07-09-29156)
                                                                 Appendix A

Acronyms
    ARRA                  American Recovery and Reinvestment Act of 2009

    C.F.R.                Code of Federal Regulations

    DDS                   Disability Determination Services

    FY                    Fiscal Year

    GAO                   Government Accountability Office

    IT                    Information Technology

    ODD                   Office of Disability Determinations

    OIG                   Office of the Inspector General

    OMB                   Office of Management and Budget

    Pub. L. No.           Public Law Number

    SSA                   Social Security Administration

    U.S.C.                United States Code




DDS Staffing Under ARRA (A-07-09-29156)
                                                                                   Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed the American Recovery and Reinvestment Act of 2009 (ARRA).

•   Reviewed Office of Management and Budget (OMB) Memorandums.

        o M-09-10 Initial Implementing Guidance for the American Recovery and
          Reinvestment Act of 2009
        o M-09-15 Updated Implementing Guidance for the American Recovery and
          Reinvestment Act of 2009

•   Reviewed the Social Security Administration’s Agency-wide ARRA Plan and the
    Disability and Retirement Workload Plan approved by OMB.

•   Interviewed staff from the Offices of Disability Determinations (ODD) and Budget,
    Finance and Management.

We performed our review in Kansas City, Missouri, from April through October 2009.
The entity reviewed was the ODD under the Deputy Commissioner for Operations. We
conducted our review in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency. 1




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency Inspector General Reform Act of 2008, Pub. L. No.
110-409 § 7, 5 U.S.C. App. 3 § 11.


DDS Staffing Under ARRA (A-07-09-29156)
                                                                      Appendix C
Fiscal Year 2009 American Recovery and Reinvestment Act (ARRA) Hiring

                       Budgeted   Actual ARRA                    Budgeted   Actual ARRA
                        ARRA       Hires as of                    ARRA       Hires as of
    Region/State         Hires    October 2009    Region/State     Hires    October 2009
Boston                       12             12   Dallas                17             17
Connecticut                                  1   Arkansas                              0
Maine                                        2   Louisiana                             0
Massachusetts                                5   New Mexico                            0
New Hampshire                                0   Oklahoma                              0
Rhode Island                                 4   Texas                                17
Vermont                                      0   Kansas City            5              5
New York                     29             29   Iowa                                  0
New Jersey                                  25   Kansas                                5
New York                                     4   Missouri                              0
Puerto Rico                                  0   Nebraska                              0
Philadelphia                 31             31   Denver                 2              2
Delaware                                     0   Colorado                              1
District of Columbia                        10   Montana                               0
Maryland                                     0   North Dakota                          0
Pennsylvania                                 0   South Dakota                          0
Virginia                                    19   Utah                                  1
West Virginia                                2   Wyoming                               0
Atlanta                     118            118   San Francisco         28             28
Alabama                                      1   Arizona                               6
Florida                                     42   California                           22
Georgia                                      2   Hawaii                                0
Kentucky                                     0   Nevada                                0
Mississippi                                  0   Seattle               17             17
North Carolina                              36   Alaska                                3
South Carolina                              17   Idaho                                 0
Tennessee                                   20   Oregon                               13
Chicago                      41             41   Washington                            1
Illinois                                     2   Total                300            300
Indiana                                      2
Michigan                                     1
Minnesota                                    8
Ohio                                        28
Wisconsin                                    0




DDS Staffing Under ARRA (A-07-09-29156)
                                                     Appendix D
Disability and Retirement Workload Plan (Updated November 2009)




DDS Staffing Under ARRA (A-07-09-29156)                           D-1
DDS Staffing Under ARRA (A-07-09-29156)   D-2
DDS Staffing Under ARRA (A-07-09-29156)   D-3
DDS Staffing Under ARRA (A-07-09-29156)   D-4
DDS Staffing Under ARRA (A-07-09-29156)   D-5
DDS Staffing Under ARRA (A-07-09-29156)   D-6
DDS Staffing Under ARRA (A-07-09-29156)   D-7
DDS Staffing Under ARRA (A-07-09-29156)   D-8
DDS Staffing Under ARRA (A-07-09-29156)   D-9
DDS Staffing Under ARRA (A-07-09-29156)   D-10
DDS Staffing Under ARRA (A-07-09-29156)   D-11
DDS Staffing Under ARRA (A-07-09-29156)   D-12
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Mark Bailey, Director, Kansas City Audit Division

   Tonya Eickman, Audit Manager, Kansas City Audit Division

Acknowledgments
In addition to those named above:

   Karis Crane, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-07-09-29156.




DDS Staffing Under ARRA (A-07-09-29156)
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board




DDS Staffing Under ARRA (A-07-09-29156)
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
